HHS/OIG-Audit--"Review of the Food and Drug Administration's Handling of Adverse Drug Reaction Reports, (A-15-98-50001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Handling of Adverse Drug
Reaction Reports," (A-15-98-50001)
December 14, 1999
Complete Text of Report is available in PDF format
(2.41 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review, made at congressional request, examined the Food and Drug Administration's
(FDA) handling of adverse drug reaction (ADR) reports. The FDA is responsible
for ensuring that marketed drugs are safe and effective, and operates a program
to receive and analyze information on adverse drug reactions and recommend corrective
regulatory actions when necessary. A major problem identified was the under
reporting of serious adverse drug reactions to FDA by hospitals and health professionals.
Currently, reporting of ADRs to FDA by hospitals and health professionals is
strictly voluntary. The FDA needs to seek out ways to augment the limited information
it now receives regarding ADR occurrences. Recommendations call for steps the
FDA can take to improve oversight of this area. The FDA agreed with our recommendations
and is taking action to strengthen the ADR reporting and handling process.